               HEARING BEFORE THE
COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM
                SUBCOMMITTEE ON
   GOVERNMENT ORGANIZATION, EFFICIENCY, AND
             FINANCIAL MANAGEMENT
        U.S. HOUSE OF REPRESENTATIVES

“Problems at the Internal Revenue Service: Closing the
       Tax Gap and Preventing Identity Theft”




                     Testimony of
           The Honorable J. Russell George
   Treasury Inspector General for Tax Administration

                    April 19, 2012

                   Washington, D.C.
                            TESTIMONY OF
                 THE HONORABLE J. RUSSELL GEORGE
         TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION
                              before the
          COMMITTEE ON OVERSIGHT AND GOVERNMENT REFORM
                          SUBCOMMITTEE ON
    GOVERNMENT ORGANIZATION, EFFICIENCY, AND FINANCIAL MANAGEMENT
                   U.S. HOUSE OF REPRESENTATIVES

              “Problems at the Internal Revenue Service: Closing the Tax Gap
                               and Preventing Identity Theft”

                                             April 19, 2012

       Chairman Platts, Ranking Member Towns, and Members of the Subcommittee, I
thank you for the opportunity to testify on the Tax Gap and the efforts by the Internal
Revenue Service (IRS) to enforce compliance with the tax code. My comments will
focus on how the Treasury Inspector General for Tax Administration (TIGTA) provides
oversight of the IRS’s efforts to ensure that taxpayers comply with their tax obligations,
as well as what the IRS is doing to address the growing risk of identity theft and tax
fraud.

       The IRS defines the Tax Gap as the difference between the estimated amount
taxpayers owe1 and the amount they voluntarily and timely pay for a tax year. In
January 2012, the IRS released updated estimates of the Tax Gap for Tax Year (TY)2
2006, which indicated that the Nation’s voluntary compliance rate was essentially
unchanged from the prior estimates. The IRS states that the increase in the dollar
amount is due almost entirely to the increase in total tax liabilities over the intervening
period and does not reflect any significant change in compliance rates. The following
table shows the comparison between the prior and the current Tax Gap estimates.




1
  This includes all types of tax liabilities, including: Individual Income Tax, Corporation Income Tax,
Employment Tax, Estate Tax, and Excise Tax.
2
  A 12-month accounting period for keeping records on income and expenses used as the basis for
calculating the annual taxes due. For most individual taxpayers, the tax year is synonymous with the
calendar year.

                                                     1
                                           Tax Year 2001            Tax Year 2006
                                             (billions)               (billions)
                Total Tax Liabilities                  $2,112                $2,660
                     Gross Tax Gap                    $345               $450
                                         (83.7% compliance) (83.1% compliance)
             Enforcement and Late                             $55               $65
                       Payments
                        Net Tax Gap                       $290                 $385

       The Gross Tax Gap is defined as the amount of true tax liability that taxpayers do
not pay on time. The Net Tax Gap is defined as the amount of true tax liability that is
not paid on time and is not collected subsequently, either voluntarily or as the result of
enforcement activities.

     The IRS reports that the Gross Tax Gap is comprised of three primary
components:



                Non-filing (6%)   Underpayment
                 $28 billion           10%
                                    $46 billion




                                             Underreporting
                                                 84%
                                              $376 billion




          Underreporting of tax liabilities. Of the $450 billion gross Tax Gap in TY
          2006, $376 billion (approximately 84 percent) is estimated to result from the
          underreporting of tax liabilities. Specifically, the underreporting Tax Gap
          (henceforth the “underreporting gap”) is defined as the amount of tax liability

                                                  2
          not voluntarily reported by taxpayers who file required returns on time. For
          income taxes, the underreporting gap arises from three types of errors:
          underreporting taxable income, overstating offsets to income or to tax, and
          net math errors. Taxable income includes such items as wages and salaries,
          rents and royalties, and net business income. Offsets to income include
          income exclusions, exemptions, statutory adjustments, and deductions.
          Offsets to tax are tax credits. Net math errors involve mathematical mistakes
          or transcription errors made by taxpayers that are corrected at the time the
          return is processed. In addition to developing an estimate of the aggregate
          underreporting gap, it is possible to break aspects of this estimate down into
          measures of the underreporting gap attributable to specific line items on the
          tax return.

          Non-filing of tax returns. Of the $450 billion gross Tax Gap in TY 2006, $28
          billion (approximately 6 percent) is estimated to be associated with tax returns
          that were filed after the filing deadline (or valid extension date) or were not
          filed at all. It is reduced by amounts paid on time, such as through
          withholding, estimated payments, and other credits. However, it does not
          include legitimate nonfilers (i.e., those who have no obligation to file).

          Underpayment of tax liabilities. For TY 2006, $46 billion of taxes reported on
          time were not paid when due. Stated another way, the underpayment gap is
          the portion of the total tax liability that taxpayers report on their timely filed
          returns but do not pay on time. This arises primarily from insufficient
          remittances from taxpayers themselves. However, it also includes employer
          under-deposits of withheld income tax. In the case of withheld income tax,
          employees have the responsibility to report the corresponding tax liability on
          timely filed returns, and employers are responsible for depositing those
          withholdings with the Government on time.

        The IRS reported that the growth in the Tax Gap from TY 2001 to 2006 was
concentrated in the underreporting and underpayment forms of noncompliance, which
jointly account for more than nine out of ten Tax Gap dollars. The underreporting gap
grew by 32 percent and the underpayment gap grew by 38 percent. In contrast, the
nonfiling gap grew by only 4 percent.

       The IRS further reported that more than a third of the growth in the
underreporting gap was attributable to corporate income taxes. Several factors
contributed to this increase: First, the 2001 estimate was calculated based on old data
and was likely understated. Second, the new estimate relied on more recent and

                                             3
improved data. And finally, between TY 2001 and 2006, corporate income tax liabilities
more than doubled, while the individual income taxes grew by only 15 percent.

        Compliance is far higher when reported amounts on tax returns are subject to
information reporting and withholding. For example, when there is substantial
information reporting and withholding3 the compliance rate is 99 percent. For amounts
subject to substantial information reporting but not withholding,4 the rate is 92 percent.
For amounts subject to little or no information reporting, such as business income, the
rate is only 44 percent.

        The IRS reported that for TY 2006, the amount of enforced and other late
payments it will eventually collect is estimated to be $65 billion. Both types of payments
were estimated using IRS data of prior revenue and late payments received. However,
the IRS does not have good data on the amounts that are paid late without enforcement
efforts, and amounts to be collected in future years were estimated using data on
payment patterns from earlier years.

         The IRS uses a variety of techniques to identify unpaid tax liabilities, including (1)
identifying taxpayers who file tax returns without fully paying the tax reported to be
owed, (2) checking for obvious errors when processing returns, (3) finding additional tax
liabilities by auditing a filed tax return, (4) assessing a penalty for some taxpayer action
or inaction, and (5) sending a bill to a taxpayer who did not file a required tax return.

        If the taxpayer does not cooperate, the IRS may take enforced collection action.
Enforcement action could include serving a notice of levy that is attached to the
taxpayer’s income or assets such as bank accounts. In some cases, the IRS will take
enforcement action by seizing and selling property. The IRS takes these actions only
after giving the taxpayer an opportunity to voluntarily pay the debt, make arrangements
to pay, or supply information to show that payment would create a hardship.

        In the IRS’s 2007 report on Reducing the Federal Tax Gap, the IRS states that
voluntary compliance rates appear to have remained relatively stable at around 85
percent for decades. The report further states that to make a meaningful improvement
in this rate will require a long-term, focused effort involving taxpayer service,
modernization, and enforcement. The Department of the Treasury’s 2006 report, A
Comprehensive Strategy for Reducing the Tax Gap, describes the extensive challenges
to reducing the Tax Gap. According to the report, addressing the Tax Gap involves
improving voluntary compliance, reducing opportunities for evasion through legislative

3
 Wages and salaries.
4
 Pensions and annuities, unemployment compensation, dividend and interest income, Social Security
benefits.

                                                  4
proposals, and making it easier for the IRS to administer the tax laws, accompanied by
broader simplification and reform of the tax code and significant advances in
compliance technology.

         The IRS also reported that the Tax Gap is caused by both unintentional taxpayer
errors (whether due to tax law complexity, confusion, ignorance, or carelessness) and
willful tax evasion or cheating, although the IRS does not have sufficient data to
distinguish the amounts attributable to each. In addition, a wide range of factors
influence voluntary compliance, including tax law changes, the economy, and changing
demographics of the taxpayer population. There are also indirect effects of IRS
enforcement activities beyond the direct effects of additional revenue collections. These
refer to “spillover” effects when enforcement activity on one set of taxpayers has
positive effects on the compliance behavior of the rest of the taxpayer population in
response to heightened enforcement activity. However, the IRS also stated that it is
very difficult to determine the impact that any IRS activity has on voluntary compliance.

        From the perspective of tax administration, the IRS also needs to overcome
institutional impediments to more effectively address the Tax Gap. These impediments
refer to the established policies, practices, technologies, business processes or
requirements that add unintended costs or are no longer optimal given changes to
strategies, goals, and technologies. TIGTA’s perspective is that the current institutional
impediments the IRS faces can point the way to improvement opportunities, to wit:

          Incomplete compliance research that does not identify all the sources of
          noncompliance so that IRS resources can be targeted properly. The IRS
          reported that new research is needed on the relationship between taxpayer
          burden and compliance and on the impact of customer service on voluntary
          compliance. Additional research would also assist in establishing
          benchmarks and measures to assess the effectiveness of IRS efforts to
          address taxpayer compliance.

          Insufficient compliance strategies that do not always address the areas of
          highest risk of noncompliance. The IRS’s systems that identify returns for
          examination need improvement. IRS examinations continue to result in no
          change to the return, resulting in an inefficient use of examination resources
          and increased burden on compliant taxpayers. In addition, IRS collection
          activity that extends for years has a lower rate of collection for delinquent
          liabilities. The IRS reported it is working to reengineer examination and
          collection procedures based on improved data from its National Research
          Project study of individual taxpayers. This effort, coupled with investments in

                                            5
            technology, should result in efficiency gains and better targeting of
            examination efforts. These efficiency gains translate into expanded
            examination coverage, higher audit yields, and reduced burden on compliant
            taxpayers.

            Incomplete document matching programs because the IRS does not have
            reliable third-party data for all taxpayer sectors and for all types of tax returns,
            most notably income earned by the self-employed. The IRS reported that,
            without this data, it cannot easily detect errors or potential fraud except
            through expensive and intrusive examinations.

            Insufficient enforcement resources to handle a growing caseload. The IRS
            has identified noncompliance and potential fraud cases it did not have the
            resources to work, allowing billions of dollars to be fraudulently refunded each
            year.5 In addition, in Fiscal Year6 (FY) 2010, the Collection function was
            unable to work all of the existing accounts in the Queue7 with current staffing,
            and the number of new taxpayer delinquent accounts was outpacing closures.
            If changes do not occur, a significant number of cases will continue to not
            receive additional contact to resolve the tax delinquency. 8

       The IRS often faces constant changes as a result of temporary tax provisions
and new tax law. For example, during FY 2010, the IRS encountered many challenges,
including a variety of tax provisions that were created, extended, or expanded.
Specifically, the provisions were the:

            American Recovery and Reinvestment Act of 2009 (Recovery Act). 9 The
            Recovery Act included 56 tax provisions (20 related to individual taxpayers
            and 36 related to business taxpayers). These provisions will continue to
            challenge the IRS over multiple filing seasons.

            Worker, Homeownership, and Business Assistance Act of 2009. 10 The
            Worker, Homeownership, and Business Assistance Act of 2009 revised,
            extended, and expanded the First-Time Homebuyer Credit (Homebuyer

5
  TIGTA, Ref. No. 2011-40-023, Reduction Targets and Strategies Have Not Been Established to Reduce
the Billions of Dollars in Improper Earned Income Tax Credit Payments Each Year (February 2011).
6
  A 12-consecutive-month period ending on the last day of any month, except December. The Federal
Government’s fiscal year begins on October 1 and ends on September 30.
7
  An automated holding file for unassigned inventory of delinquent cases for which the Collection function
does not have enough resources to immediately assign the cases for contact.
8
  TIGTA, Ref. No. 2011-30-071, Trends in Compliance Activities Through Fiscal Year 2010 (July 2011).
9
10Pub. L. No. 111-5, 123 Stat. 115.
   Pub. L. No. 111-92, 123 Stat. 2984.

                                                     6
            Credit) to a broader range of home purchases and added new documentation
            requirements. Initially, the IRS did not have math error authority11 to disallow
            the Homebuyer Credit during processing if documentation was not provided.
            Congress has since passed legislation requiring documentation for the
            Homebuyer Credit and provided the IRS with math error authority to disallow
            the Credit if the documentation was not provided.

            Hiring Incentives to Restore Employment Act of 2010 (HIRE Act). 12 The
            HIRE Act enacted tax benefits to employers who expanded payrolls and hired
            previously unemployed individuals. Eligible business taxpayers will be
            exempt from their share of Social Security taxes on wages to eligible
            employees. These taxpayers may also be eligible for a credit of up to $1,000
            for qualified employees. Additionally, Title V of the HIRE Act included the
            Foreign Account Tax Compliance Act. A provision of this Act included the
            requirement that individual taxpayers indicate on their income tax returns the
            maximum value of foreign financial assets held during the tax year. This
            provision will allow the IRS to increase enforcement on taxpayers hiding
            assets overseas.

            Patient Protection and Affordable Care Act of 2010 (Affordable Care
            Act).13 At least 42 of the 514 Affordable Care Act provisions add to or amend
            the Internal Revenue Code, and at least eight require the IRS to establish
            new operations. Collectively, these provisions represent the largest set of tax
            law changes in 20 years. The Affordable Care Act contains $438 billion of
            revenue provisions in the form of new taxes and fees. It also contains credits
            which provide incentives for medical research and for businesses to offer
            employees health care insurance. Additionally, new reporting requirements
            have been established for certain business transactions. The Affordable Care
            Act further imposes penalties administered through the tax code for
            individuals and businesses that do not obtain health coverage for themselves
            or their employees. Other provisions raise revenue to help pay for the overall
            cost of health insurance reform.

      These tax provisions are examples of the impact that tax law changes have on
how the IRS conducts its activities, how many resources are required, and how quickly
or whether the IRS can meet strategic goals. The IRS has the challenging task of


11
   This is a program in which the IRS contacts taxpayers through the mail or by telephone when it
identifies mathematical errors or mismatches of taxpayer information that would result in a tax change.
12
13 Pub. L. No. 111-147, 124 Stat. 71.
   Pub. L. No. 111-148, 124 Stat. 119.

                                                     7
maintaining a quality workforce and enforcing tax laws in an environment of constantly
changing tax legislation.

        The IRS also faces significant challenges in obtaining complete and timely
compliance data and in developing methods necessary to interpret the data. Despite a
19 percent increase in enforcement staffing levels since FY 2006 and the IRS’s more
vigorous use of collection enforcement tools, FY 2010 enforcement results were mixed
when compared to FY 2009 results. The number of delinquent accounts closed by full
payment and the amount collected on delinquent accounts increased. However, the
Collection function received more delinquent accounts than it closed, gross accounts
receivable rose, and the number of tax delinquency investigation cases14 closed with the
receipt of a delinquent tax return fell.15 In addition, there were increases in the number
of delinquent accounts that may never be worked because they were shelved or
surveyed and in accounts receivable. For examinations, the large staffing level
increases in FY 2009 and FY 2010 resulted in the most tax returns examined in the past
five years. The dollar yield per hour for examinations increased in FY 2009 but
decreased in FY 2010. In addition, the no-change rates16 for several types of
examinations increased in FY 2010 compared to FY 2009. The IRS continues to
conduct studies with the goal of improving the return selection process to increase rates
of return across the enforcement program.

        One means the IRS employs to collect unpaid taxes is the notice stream. 17 The
notice stream is the least costly of the IRS’s approaches to collecting unpaid taxes.
While the notice stream collects billions of dollars in delinquent taxes annually, reducing
the time between notices could result in the annual collection of millions of dollars more.
During FY 2010, the IRS sent approximately 21.9 million balance-due notices to
individuals to attempt to collect unpaid taxes. By a wide margin, the first notice (also
known as the Master File notice) closed the most cases, collected the most money, and
generated the highest number of taxpayer responses. Cases not resolved after the
Master File notice continue in the notice stream, and those taxpayers receive various
sequences of notices. The IRS allows 35 days between notices for the taxpayer to
respond, but TIGTA’s analysis shows that the time between notices can be reduced. As
these balance due modules progress within the notice stream, the probability of
collection diminishes.

       TIGTA recommended that the IRS consider reducing the time between each
notice by seven days. This could result in the potential collection of as much as $363

14
   An unfiled tax return for a taxpayer. One tax delinquency investigation case exists for all tax periods.
15
   TIGTA, Ref. No. 2011-30-071, Trends in Compliance Activities Through Fiscal Year 2010 (July 2011).
16
   Percentage of examinations where the examiner closed the case with no recommended tax change.
17
   A series of balance-due notices sent by the IRS to the taxpayer to prompt payment.

                                                      8
million more each year. In addition, taxpayers could potentially save $1.8 million each
year in interest payments. The IRS agreed with TIGTA’s recommendations and plans
to take corrective actions. However, in its response, the IRS stated that 35 days
between notices were necessary to process taxpayer inquiries and correspondence.
TIGTA’s report noted that the IRS has controls in place to prevent the next notice from
being sent when taxpayers’ correspondence is being processed.18

      The IRS reported the following initiatives that it has begun to implement to
address the Tax Gap:

Tax Return Preparers

       Every year, more than one-half of all taxpayers pay someone else to prepare
their Federal income tax returns. During the 2011 Filing Season,19 the IRS processed
approximately 66.9 million individual Federal income tax returns prepared by paid tax
return preparers.

        In December 2009, the IRS announced a suite of proposed reforms to improve
oversight of the return preparer community. TIGTA is monitoring the IRS’s
implementation of the new Return Preparer Program. In September 2011, TIGTA
reported that it will take years for the IRS to implement the Return Preparer Program
and to realize its impact.20 When the decision was made to register preparers, the IRS
had not established all of the program requirements. The IRS also had not: (1)
established the organizational structure of the program, (2) determined how it will verify
that all preparers met the requirements, (3) determined how it will enforce program
requirements, or (4) developed the system(s) and processes necessary to administer
and oversee the program. It will not be until Calendar Year21 2014 that all preparers will
be subjected to all suitability and competency tests. In the meantime, IRS management
stated they will develop and implement an enforcement strategy. Currently, the IRS
does not have a sufficient management information system to gather data on preparers.
Further, the IRS will need to ensure that taxpayers understand the new requirements
and the importance of using only registered preparers to prepare their tax returns.

       Of the 66.9 million individual Federal income tax returns prepared by paid tax
return preparers and processed by the IRS in Calendar Year 2011, 90 percent were e-

18
   TIGTA, Ref. No. 2011-30-112, Reducing the Processing Time Between Balance Due Notices Could
Increase Collections (September 2011).
19
   The period from January 1 through April 15 when most individual income tax returns are filed.
20
   TIGTA, Ref. No. 2010-40-127, It Will Take Years to Implement the Return Preparer Program and to
Realize Its Impact (September 2010).
21
   The 12-consecutive-month period ending on December 31.

                                                  9
filed.22 In November 2009, Congress approved a Federal e-file mandate for tax return
preparers. TIGTA’s review of the IRS’s implementation of the mandate found that for
the first few years, the IRS plans to use a “soft” approach to enforcement that
emphasizes educating and collaborating with preparers in implementing e-file
requirements. Additionally, the continued use of multiple preparer identification
numbers makes it difficult to match all tax returns to the preparers. However,
improvements are under way to ensure the effectiveness of controls and system
validations over the preparer registration process.

       TIGTA recommended several actions, including that the IRS monitor preparers’
compliance with the e-file mandate and ensure that suitability tests match applicants to
IRS information to identify preparers who are not allowed to prepare tax returns. IRS
management agreed and stated that corrective actions to address the
recommendations have been taken or are planned.

       The IRS reported that this compliance strategy will cut down on inaccurate and
fraudulent returns. It also makes it easier for the IRS to catch unscrupulous return
preparers. In addition, these efforts will help improve service to taxpayers and assist
with voluntary compliance.

Basis Reporting

       Third-party reporting and transparency is also crucial to high compliance among
individual taxpayers. Basis reporting associated with the buying and selling of securities
was an area that needed third-party reporting based on previous studies that showed
low levels of compliance.

       The IRS issued proposed regulations in 2009 and final regulations in 2010 under
a new law23 that will require reporting by stock brokers and mutual fund companies on
an investor’s adjusted basis and whether any gain or loss on the sale is classified as
short-term or long-term for most stock purchased in 2011 and all stock purchased in
2012 and later years. Such reports will be made available to investors and the IRS.

Business Taxes

      Third-party reporting and transparency are hallmarks of high levels of tax
compliance. The IRS undertook several initiatives in recent years to improve those

22
  As of May 4, 2011.
23
  Energy Improvement and Extension Act of 2008, Pub. L. No. 110-343, § 403, 122 Stat. 3765, 3854-
3858.

                                                 10
aspects in the world of business taxes, where the efficient allocation of limited resources
is particularly important to sound tax administration.

        New merchant card reporting requirements24 were established for TY 2011. They
provide third-party reporting data on business receipts for the first time, making it easier
for the IRS to identify businesses that are either under-reporting receipts or not
reporting at all. The IRS issued final regulations in 2010 and the new reporting
requirements took effect on January 1, 2011. In general, these requirements apply to
government entities and private businesses, as well as most types of payment cards,
such as credit and debit cards.

       In an effort to achieve greater transparency, the IRS also requires the reporting
of certain tax avoidance transactions that have the potential to be abusive. These
transactions are called “listed” transactions and also include other types of transactions
that are the same or substantially similar to the listed transactions. Taxpayers are
required to disclose their participation in listed transactions or they may be subject to
penalties. In FY 2010, the IRS received approximately 35,000 of the disclosure
documents.

International Compliance Efforts

       Globalization of the U.S. economy has been a major trend for many years.
International business holdings and investment in the United States have grown from
nearly $188 billion in 1976 to over $14.5 trillion in 2007, while U.S. business and
investment worldwide grew from nearly $368 billion to nearly $15 trillion over the same
period. The scope and complexity of the international financial system create significant
enforcement challenges for the IRS. The IRS continues to be challenged by a lack of
information reporting on many cross-border transactions. In addition, the varying legal
requirements imposed by different jurisdictions result in complex business structures
that make it difficult to determine the full scope and effect of these cross-border
transactions. Technological advances also provide opportunities for offshore
investments that were once only possible for large corporations and wealthy individuals.

       Over the past few years, the IRS has taken steps and made strategic internal
realignments to better coordinate international tax compliance issues. It has developed
a strategic plan specifically for international tax issues with two major goals: 1) enforce
the law to ensure that all taxpayers meet their obligation to pay U.S. taxes and 2)

24
     Housing and Economic Recovery Act of 2008, sec. 3091, § 6050W, 112 Stat. 2654, 2908-2911.



                                                   11
improve service to make voluntary compliance less burdensome. In November 2009,
the IRS’s Global High Wealth unit began operation. It was formed to better cope with
the growing complexity of income and assets of the high-income, high-wealth
population. In August 2010, the IRS realigned its international efforts under its Large
Business and International (LB&I) Division, which was designed to strengthen
international tax enforcement in several ways, including identifying emerging
international compliance issues more quickly and ensuring the right compliance
resources are allocated to the right cases. During FY 2012, the IRS will merge the
Office of Chief Counsel’s Advanced Pricing Agreement Program with the LB&I
Division’s Mutual Agreement Program to form the Advanced Pricing and Mutual
Agreement Program. This combined program will be a component of the LB&I
Division’s Transfer Pricing Operations. The IRS expects that efforts like these will
improve international tax compliance by allowing it to focus on high-risk issues and
cases with greater consistency and efficiency.

       The Congress, the Department of the Treasury, and the IRS are concerned
about the International Tax Gap – that is, taxes owed, but not collected on time, from a
U.S. or nonresident person whose cross-border income is subject to U.S. taxation. The
IRS has not estimated the size of the International Tax Gap, but non-IRS estimates
range from $40 billion to $123 billion25 annually. While there might be overlap between
the overall IRS Tax Gap estimate and the International Tax Gap estimate, it is unlikely
that the $450 billion Tax Gap estimate includes the entire International Tax Gap. The
primary reason for this is that identifying hidden income within international activity is
very difficult and time-consuming.26

       The IRS’s strategic initiatives focus on strengthening reporting requirements,
enhancing IRS access to international data, and aligning resources to cases and issues
with the highest compliance risk. One reporting requirement is the Report of Foreign
Bank and Financial Accounts (FBAR) report, which is an information report required
when U.S. citizens, residents, and domestic entities owns or has signature or other
authority over foreign financial accounts worth over $10,000 in any calendar year.
Congress set up FBAR penalties because some taxpayers use these foreign accounts
to evade U.S. taxation.




25
   TIGTA, Ref. No. 2009-IE-R001, A Combination of Legislative Actions and Increased IRS Capability and
Capacity Are Required to Reduce the Multi-Billion Dollar U.S. International Tax Gap (January 2009).
26
   GAO, Ref. No. GAO-07-237, Tax Administration: Additional Time Needed to Complete Offshore Tax
Evasion Examinations (March 2007).

                                                  12
       In addition, the Foreign Account Tax Compliance Act (FATCA) 27 requires foreign
financial institutions to report to the IRS information about financial accounts held by
U.S. taxpayers or by foreign entities in which U.S. taxpayers hold a substantial
ownership interest. FATCA will be phased in by the IRS in the next several years.
Individual taxpayers with an aggregate balance of more than $50,000 in foreign financial
assets are required to file a disclosure statement with their income tax return.

        In August 2010, TIGTA reported that taxpayers excluded $19.2 billion in foreign
earned income on TY 2008 tax returns. Our review identified 23,334 tax returns with
erroneous foreign earned income tax exclusions totaling $675 million, with an estimated
revenue loss of $90 million. Over five years, TIGTA estimated erroneous claims could
result in a total revenue loss of $450 million. Some of the recommendations that TIGTA
provided were that the IRS:

           Review the tax returns of those individuals that TIGTA identified as incorrectly
           claiming the foreign earned income exclusion;

           Establish a unit to address taxpayers identified as erroneously claiming the
           foreign earned income exclusion;

           Assess whether compliance project criteria can be used to identify erroneous
           claims during tax return processing; and

           Include programming to forward tax returns (both electronically filed and
           paper) for correction when individuals incorrectly compute their foreign
           earned income exclusion.

       IRS management agreed with most of the recommendations, but they stated that
substantial barriers prevented the implementation of certain recommendations at the
time of the review. TIGTA is concerned that the lack of corrective actions will allow
continued revenue loss.28




27
   In 2010, FATCA was enacted as part of the Hiring Incentives to Restore Employment (HIRE) Act, Pub.
L. No. 111-147, 124 Stat. 71, 97-117.
28
   TIGTA, Ref. No. 2010-40-091, Improvements Are Needed to Reduce Erroneous Foreign Earned
Income Exclusion Claims (August 2010).
                                                  13
Offshore Tax Avoidance

         Stopping offshore tax cheating and getting these people, especially high net-
worth individuals, back into the tax system has been a top priority of the IRS. The IRS
continues to work with the U.S. Department of Justice on tax evasion cases involving
foreign countries with bank secrecy laws that prevent the United States from obtaining
information on taxpayer transactions. In addition, both the 2009 and 2011 Offshore
Voluntary Disclosure Initiatives have encouraged taxpayers with hidden offshore assets
and income to come back into the tax system using the IRS’s Voluntary Disclosure
Program. According to the IRS, these initiatives have resulted in the collection of over
$4 billion. Due to the success of the first two initiatives, the IRS is currently offering a
third chance for delinquent taxpayers to disclose their hidden offshore assets. These
initiatives are beneficial because they offer a uniform penalty structure for taxpayers
who voluntarily disclose their hidden offshore assets and income to the IRS and, in
return, ensure that the taxpayers receive consistent tax and penalty treatment.

       The initiatives also provide the opportunity to calculate, with a reasonable degree
of certainty, the total cost of resolving all outstanding offshore tax issues related to the
undisclosed foreign bank and financial accounts and assets. On the other hand,
taxpayers with undisclosed foreign accounts and assets who do not submit a voluntary
disclosure run the risk of detection by the IRS. If caught, these taxpayers face the
imposition of substantial penalties, including the fraud and foreign information return
penalties, as well as an increased risk of criminal prosecution.

Real-Time Tax System

         The IRS has started work exploring how to implement a series of long-term
changes to the tax system which will result in higher compliance. Commissioner
Shulman has described a vision where the IRS would move away from the traditional
“look-back” model of compliance, and instead endeavor to conduct its compliance
efforts in “real time,” such as by matching third-party information with information
provided by the taxpayer when the tax returns are first filed with the IRS. The goal of
this initiative is to improve the tax filing process by reducing burden for taxpayers and
improving overall compliance “up front,” during the filing season instead of later through
compliance or enforcement activities. In addition, the IRS plans to include more data
mining and predictive analytics in this initiative, to improve identification of
noncompliance and potential tax fraud.

      In FY 2012, the IRS has delivered significant updates to its core tax processing
system, transitioning to a daily processing cycle for individual returns. Also, IRS


                                             14
processing systems are accepting all Forms 1040, U.S. Individual Income Tax Return,
electronically through an updated e-filing capability. This capability is designed to
eventually feed into a single, consolidated taxpayer account database that will support
the deployment of the next generation of taxpayer service and enforcement functions.

        TIGTA has reviewed a number of other IRS challenges in addressing the Tax
Gap. One important aspect involves human capital. Like many Federal agencies, the
IRS is faced with the major challenge of replacing existing talent caused by a large
number of retirements expected over the next several years. In five years, about one-
third of the IRS’s workforce of approximately 100,000 employees will be retirement
eligible. This statistic is even more pronounced in the leadership ranks, where over
two-thirds of IRS executives will be retirement eligible in five years. Adding to this
challenge, the IRS offered early retirement and buyouts to more than 2,200 employees
in FY 2011. Replacing these employees provides an opportunity for reshaping the IRS
workforce, but also represents a significant challenge since many departing employees
possess unique skills and institutional knowledge that will be difficult to replace.

        Revenue officers (RO) have a direct impact on the IRS’s ability to meet its
mission by collecting the appropriate amount of tax due. The IRS added 1,515 new
ROs during the period June 2009 through February 2010, but it still struggles to keep
pace with attrition and workload. If the IRS does not have a sufficient number of
qualified ROs to collect delinquent taxes, it could create an unfair burden on the majority
of taxpayers who fully pay their taxes on time. However, when estimating the staffing
levels of ROs, the IRS does not determine the number needed to address the available
workload. Instead, the IRS bases the RO staffing level primarily on a budget figure.
The IRS believes there is more than enough inventory to justify staffing increases.
However, the IRS does not know when hiring additional ROs will no longer be needed.

       The IRS’s FY 2009 budget justification projected that the RO hiring initiative
would allow 88,000 additional delinquent account closures, resulting in $333.6 million in
additional revenue for FY 2011. However, the IRS does not track a comparison of
actual results to the original projections in the years following the budget’s
implementation. As a result, it is unknown if the IRS realized all or part of the additional
projected revenue for this initiative, and the IRS lost an opportunity to collect information
that could help improve future budgets. TIGTA recommended that the IRS:

          Establish rules for optimizing staffing levels for ROs to address Collection’s
          potentially collectible inventory; and

          Develop methods to track actual results with projected benefits in future
          budget justifications.

                                             15
         IRS management agreed to review workload and resource levels to improve
future resource allocation and staffing decisions. IRS management also stated that they
initiated efforts in 2010 to develop a methodology to determine the actual revenue
collected from specific enforcement initiatives proposed in the IRS’s FY 2009 budget
justification. However, this information was not shared with TIGTA during the review.
As a result, TIGTA did not assess whether those efforts addressed the
recommendation.29 Until IRS management implements this type of methodology, they
will not know the actual additional revenue realized from requested enforcement
initiatives.

       The misclassification of millions of employees as independent contractors is a
nationwide problem that continues to grow and contribute to the $72 billion
underreporting Employment Tax Gap. In a report issued in Fiscal Year 2010,30 TIGTA
determined that the IRS has opportunities to enhance compliance in its Employment
Tax Program by: 1) taking measures to ensure employment tax forms are not misused
to avoid paying taxes, and 2) regularly sharing the results of worker classification
examinations between IRS compliance functions to ensure the greatest possible use of
the agency’s resources when addressing the underreporting Tax Gap. TIGTA identified
more than 74,000 taxpayers who may have avoided paying approximately $26 million in
Social Security and Medicare taxes in Processing Year31 2008.

       Another of the IRS’s priorities is combating tax avoidance transactions.32
However, the IRS has identified tax returns with tax avoidance transaction issues that
do not warrant examination before taxpayer contact, a process known as surveying.
Surveying tax returns with a tax avoidance transaction issue without proper justification
or approval could be counterproductive to the IRS’s goal to combat abusive schemes.
In addition, this approach can erode the public’s confidence in the IRS’s ability to
enforce tax laws in a fair, equitable, and consistent manner. As a result, TIGTA
recommended that the IRS:

            Develop internal controls and train employees to ensure that justification is in
            the case files to survey tax returns with a tax avoidance transaction issue;

29
   TIGTA, Ref. No. 2011-30-039, Challenges Remain to Balance Revenue Officer Staffing With Attrition
and Workload Demands (May 2011).
30
   TIGTA, Ref. No. 2010-30-025, Employment Tax Compliance Could Be Improved With Better
Coordination and Information Sharing (March 2010).
31
   The calendar year in which the tax return or document is processed by the IRS.
32
   A tax avoidance transaction is generally a specific tax transaction or promotion that reduces tax liability
by taking a tax position that is not supported by tax law. These strategies may be organized and
marketed, often through the Internet. The definition is not merely limited to activities that improperly
reduce tax, but may also include transactions that conceal assets and income.

                                                      16
          Have an independent function review the tax return for concurrence with the
          group manager’s decision;

          Ensure that tax returns with tax avoidance transaction issues (surveyed as
          excess inventory) can be readily identified, and examinations are completed
          once taxpayers are contacted; and

          Develop procedures to ensure surveyed tax returns are included as part of
          the quality review process.

       IRS management disagreed with TIGTA’s two recommendations related to
strengthening existing controls and developing procedures to include surveyed tax
returns as part of the quality review process. TIGTA continues to believe that the
breakdown in controls for the approval process indicates that tax returns surveyed
without documentation may have yielded examination results.

Quality Taxpayer Service

        The Department of the Treasury and the IRS recognize that the delivery of
effective taxpayer service has a significant impact on voluntary tax compliance.
Answering taxpayers’ questions to assist them to correctly prepare their returns reduces
the need to send notices and correspondence when taxpayers make errors. Taxpayer
service also reduces unintentional noncompliance and shrinks the need for future
collection activity. The IRS continues to focus on the importance of improving service
by emphasizing it as a main goal in its strategic plan. It is also seeking innovative ways
to simplify or eliminate processes that unnecessarily burden taxpayers or Government
resources.

Filing Season

        As of March 24, 2012, the IRS received more than 84 million tax returns. Of
those, 74.3 million (88.4 percent) were e-filed and nearly 9.8 million (11.6 percent) were
filed on paper (a decrease of 12.3 percent from this time last year). In addition, nearly
70.2 million refunds totaling approximately $200.9 billion were issued. This Filing
Season, the IRS has delivered significant updates to its core tax processing system,
transitioning to a daily processing cycle for individual returns. Also, IRS processing
systems are accepting all Forms 1040, U.S. Individual Income Tax Return, electronically
through an updated e-filing capability. This capability is designed to eventually feed into
a single, consolidated taxpayer account database that will support the deployment of
the next generation of taxpayer service and enforcement functions.
                                            17
       However, some taxpayers who e-filed their tax returns early in the 2012 Filing
Season experienced delays in receiving their tax refunds. The IRS indicated that it had
experienced problems with its filters established to identify fraud and with the program
used by the Modernized e-File system to create output files using the accepted e-file tax
return data that other IRS systems need to continue with the processing of the tax
return. Filters established to identify fraud initially identified taxpayers as having
indicators of possible fraud, which resulted in the tax return being held for additional
screening. Once the IRS identified that these filters were incorrectly identifying some
taxpayers, it made adjustments to these filters correcting the problem.

       The Modernized e-File programming problems resulted in delays in sending
accepted e-filed tax return data to downstream processing systems. These problems
delayed the processing of approximately 7.8 million tax returns. The majority of these
tax returns were processed through the Modernized e-File system from February 2
through 11, 2012. The IRS indicated the delayed accepted tax returns were sent to
downstream systems for processing by February 18, 2012. The problems also resulted
in accepted tax return information not always being timely available for use in its
customer service operations, including “Where’s My Refund.” The IRS indicated that
these problems were addressed and processes were established to account for all tax
returns accepted during the time frame the problem existed. The IRS is developing an
end-to-end balancing process to track Modernized e-File system tax returns from
acceptance to the posting of the tax return on the Master File.

        In addition, as a result of budget constraints, the IRS expects to be able to serve
fewer taxpayers at its Taxpayer Assistance Centers and answer fewer taxpayer
telephone calls. The IRS anticipates it will have increased wait times, earlier cutoffs of
assistance to avoid end-of-day overtime, and frequent unexpected closures of small
Taxpayer Assistance Centers due to unscheduled employee absences. These centers
plan to assist more than 6.1 million taxpayers in FY 2012. Between October 1, 2011,
and March 31, 2012, the Taxpayer Assistance Centers served 3.2 million walk-in
taxpayers, which includes 1.9 million walk-in taxpayers for the 2012 Filing Season.
However, tax return preparation will only be provided on a limited number of days per
week and only on a first come, first served basis. The IRS is also planning on providing
only a 61 percent Level of Service on its toll-free lines. As of March 24, 2012, IRS
assistors have answered 9.8 million calls and have achieved a 68 percent Level of
Service and a 950 second (16 minutes) Average Speed of Answer. In addition, during
visits to Volunteer Program sites as of March 30, 2012, TIGTA has had 29 tax returns
prepared with a 48 percent accuracy rate. This is lower than the 60 percent accuracy
rate TIGTA reported during the same time period for the 2011 Filing Season.

      Finally, as of March 24, 2012, the IRS has identified tax returns with $4.4 billion
claimed in fraudulent refunds and prevented the issuance of $4.3 billion (97 percent) of
                                            18
the fraudulent refunds. This represents a 35 percent increase in the number of tax
returns identified as of the same period last processing year.

Prisoner Fraud Oversight

        In TIGTA’s review of the IRS’s processes to identify potentially fraudulent tax
returns for screening, TIGTA auditors found that the majority of tax returns the IRS
identified as being filed by prisoners were not screened to assess fraud potential.
TIGTA determined that 253,929 (88 percent) of the 287,918 tax returns filed by a
prisoner as of March 24, 2010, were not selected for screening. Of those tax returns
not screened, 48,887 individuals had no wage information reported to the IRS by
employers. These 48,887 prisoners claimed refunds totaling more than $130 million,
including EITC claims of $78.5 million. Some of these refunds may have been stopped
by other compliance activities. For example, TIGTA determined that the IRS prevented
the issuance of nearly $18.1 million in EITC claims for 4,532 of the 48,887 prisoner tax
returns.33 In addition, the IRS is making some improvement in identifying prisoner tax
returns. As of March 24, 2012, the IRS had selected 163,005 tax returns filed by
prisoners for screening. This represents a 19 percent increase in the number of
prisoner tax returns identified as of the same period last processing year.

       Further, TIGTA’s review of the IRS’s compliance with the Inmate Tax Fraud
Prevention Act of 200834 found that, as of October 2010, the IRS had not completed
required agreements to allow the IRS to disclose prisoner tax return information to
prison officials. As a result, no information has been disclosed to either the Federal
Bureau of Prisons or State Departments of Corrections. TIGTA also found that the
Calendar Year 2009 Report to Congress on prisoner fraud is incomplete. The report
stated that the IRS identified 44,944 fraudulent prisoner tax returns during Calendar
Year 2009. However, the processes the IRS uses to identify prisoner tax returns cause
the IRS to understate the amount of prisoner fraud. Our review of the process used by
the Criminal Investigation Division to compile the 2009 prisoner data file identified a lack
of managerial oversight to ensure the accuracy and reliability of this file.

       TIGTA recommended that the IRS work with the Department of the Treasury to
seek legislation to extend the period of time the IRS has to disclose prisoner tax return
data to the Federal Bureau of Prisons and State Departments of Corrections. TIGTA
has also made a number of other recommendations related to prisoner fraud, which
include ensuring all tax returns filed by prisoners are processed through the Electronic
Fraud Detection System and receive a prisoner indicator, revising prisoner filters to

33
   TIGTA, Ref. No. 2010-40-129, Expanded Access to Wage and Withholding Information Can Improve
Identification of Fraudulent Tax Returns (September 2010).
34
   Pub. L. No. 110-428, 122 Stat. 4839, (codified as amended at 26 U.S.C. Section 6103(k)(10)).

                                                19
validate wages and withholding associated with prisoners incarcerated for the year in
which the tax return is filed claiming a refund, and developing a process to assess the
reliability of data received from Federal and State prisons. The IRS partially agreed to
our recommendations, but work remains before the IRS is fully in control of this issue. 35

Identity Theft

       Since I last testified on this topic in November 2011, TIGTA has continued to
assess the IRS’s efforts to identify and prevent identity theft. Unscrupulous individuals
are stealing identities at an alarming rate for use in submitting tax returns with false
income and withholding documents to the IRS for the sole purpose of receiving a
fraudulent tax refund. For Processing Year 2011, the IRS reported that it had detected
approximately 940,000 tax returns involving identity theft and prevented the issuance of
fraudulent tax refunds totaling $6.5 billion. While the amount of fraudulent tax refunds
the IRS detects and prevents is substantial, the IRS does not know how many identity
thieves are filing fictitious tax returns and how much revenue is being lost resulting from
the issuance of fraudulent tax refunds.

       Fraudulent tax returns are identified through the IRS’s Electronic Fraud Detection
System (EFDS) as well as through the manual screening of paper tax returns. Individual
tax returns are sent through the EFDS and are scored based on the characteristics of
the tax return and other data. The higher the score, the greater the probability that the
tax return is fraudulent. For those tax returns meeting a certain score, the tax return is
sent to an IRS employee to be screened for fraud potential. For the 2012 Filing
Season, the IRS has developed new filters to better identify identity theft before issuing
fraudulent tax refunds. As of March 7, 2012, the IRS had identified
128,242 tax returns involving identity theft with $793 million in associated fraudulent tax
refunds.

        As part of our assessment, we are identifying and quantifying potential tax refund
losses resulting from identity theft. Using characteristics of IRS-confirmed fraudulent
tax return filings involving identity theft, TIGTA analyzed tax returns filed during the
2011 Filing Season to identify additional tax returns that met the characteristics of these
confirmed cases. We have found that the issuance of fraudulent tax refunds based on
false income documents is significantly greater than the amount detected and prevented
by the IRS.

       Access to third-party income and withholding information at the time tax returns
are processed is the single most important tool the IRS could have to identify and

35
  TIGTA, Ref. No. 2011-40-009, Significant Problems Still Exist With Internal Revenue Service Efforts to
Identify Prisoner Tax Refund Fraud (December 2010).

                                                   20
prevent tax fraud. This information will prevent the issuance of billions of dollars in
fraudulent tax refunds. To further improve IRS’s ability to identify tax returns with false
income documents before refunds are paid, legislation is needed to expand IRS access
to the National Directory of New Hires36 wage information for tax administration
purposes for the purpose of identifying tax refund fraud. Currently, its use is limited by
law to just those tax returns with a claim for the EITC. The IRS included a request for
expanded access to the National Directory of New Hires in its annual budget
submissions for FYs 2010, 2011 and 2012. The request was made as part of the IRS’s
efforts to strengthen tax administration. However, the expanded access has not been
provided for in the law. The IRS has again included a request for expanded access to
the National Directory of New Hires as part of its FY 2013 budget submission. The
ability to use this information along with third-party income and withholding information
that the IRS maintains for the prior year’s tax filings would help the IRS to stop identity
theft related tax fraud.

        Next month TIGTA will also report on the IRS’s assistance to victims of identity
theft. Of continuing concern is the length of time taxpayers must work with the IRS to
resolve identity theft cases. It can take the IRS more than a year to resolve these
cases. The IRS does not provide taxpayers with realistic time frames for how long it will
take to resolve their cases. Communications between identity theft victims and the IRS
are limited and confusing, and victims are asked multiple times to substantiate their
identity. Taxpayers do not speak directly with the assistors who are working their
identity theft cases.

         The IRS has continued to take actions to improve its Identity Theft Program. As
a result of an assessment of its Identity Theft Program completed in October 2011, the
IRS is currently planning improvements to the program. The IRS is reorganizing to
have an Identity Theft Program Specialized Group within each of the business units
and/or functions where dedicated employees work the identity theft portion of the case.
It will also begin collecting IRS-wide identity theft data to assist in tracking and reporting
the affect identity theft has on tax administration. Nevertheless, the improvements may
not be sufficient to significantly reduce the burden identity theft has placed on tax
administration and on taxpayers whose identities have been stolen.

       Identity theft cases have not been prioritized during the standard tax return filing
process. The IRS plans to update tax return processing procedures to include a
special processing code to recognize the presence of identity theft documentation on a
paper-filed tax return. This will allow certain identity theft victim’s tax returns identified
during processing to be forwarded and assigned to an assistor, rather than continuing

36
  A Department of Health and Human Services national database of wage and employment information
submitted by Federal agencies and State workforce agencies.

                                                21
through the standard duplicate tax return procedures. This will reduce the time a
taxpayer must wait to have his or her identity theft case resolved from three to five
months. However, the IRS does not plan to put this change into place until June 2012.

       Additionally, if controls the IRS plans to implement do not decrease the
incidence of identity theft and fraudulent returns filed by identity thieves continue to
prevent lawful taxpayers from filing their tax returns, this inventory could remain at a
high level. Resources have not been sufficient to work identity theft cases dealing
with refund fraud and IRS employees who work the majority of identity theft cases are
also telephone assistors who are trained to communicate with taxpayers and to know
the tax laws and related IRS operational procedures. Identity theft cases can be
complex and can present considerable challenges throughout the resolution process.
The assistors are not examiners and are not trained to conduct examinations, which
require skills and tools beyond those of the assistors.

        The IRS uses little of the data from the identity theft cases to identify any
commonalities, trends, etc., that could be used to detect or prevent future refund
fraud. After resolving an identity theft case involving a duplicate tax return, the
information from the identity thief’s tax return is deleted from the legitimate taxpayer’s
account and moved to a temporary account. A special account is created for the
identity thief using a temporary IRS Number (IRSN). However, the account is not
flagged as an identity theft account. Therefore the IRS is unable to determine which
accounts were created because of identity theft.

        The ability to identify certain IRSN accounts as identity theft accounts would
allow the IRS to use the information from the tax return to identify refunds improperly
paid, and patterns and trends among perpetrators of identity theft. This would assist
the IRS in establishing accurate data with respect to revenue lost due to identity theft,
and to better understand the characteristics of potential identity theft cases. This
information would aid in development of other treatments and approaches to identity
theft tax fraud.

Criminal Investigations of Identity Theft

        When the crime of identity theft occurs within our jurisdiction, TIGTA’s Office of
Investigations (OI) investigates it as it impacts the economy, efficiency, and
effectiveness in the administration of the Internal Revenue Code. Identity theft directly
and destructively impacts law-abiding citizens. One identity theft scheme that has
attracted media coverage involves individuals stealing identities and then filing
fraudulent tax returns before the legitimate taxpayer files his or her own return. This
results in the refunds being issued to the criminals. This crime is simple tax fraud and it
falls within the jurisdiction and programmatic responsibility of the IRS. However, there

                                            22
are other variations of IRS-related identity theft that, although not widely covered by the
media, falls within TIGTA’s jurisdiction and has a significant impact on taxpayers.

       TIGTA focuses its limited investigative resources on the following areas as it
pertains to IRS related identity theft:

          IRS employees who are involved in committing identity theft either as the
          source of the identity information or through active participation in the
          scheme;

          Tax preparers who improperly steal and disclose client information for the
          purpose to commit identity theft (excluding tax preparers who prepare and file
          fraudulent tax returns for the purpose of personally stealing the refund); and

          Individuals who impersonate the IRS in furtherance of committing identity
          theft.

        TIGTA has conducted investigations of IRS employees who utilize their access to
taxpayer information as a means for stealing identities for the purpose of committing
identity theft. Noted below is an example of identity theft by an IRS employee.

Example 1: On April 14, 2011, Monica Hernandez, a part-time data entry clerk for the
IRS, was indicted for making a false income tax return. During the course of her
employment with the IRS, Hernandez stole and/or misappropriated information of other
taxpayers listed on various IRS forms. Hernandez used falsified and forged IRS forms
to obtain large tax refunds from the IRS totaling $175,144.

       IRS employees are entrusted with the sensitive personal and financial
information of taxpayers. Using this information to perpetrate a criminal scheme for
personal gain negatively impacts our Nation’s voluntary tax system and generates
widespread distrust of the IRS. TIGTA OI pursues identity theft violations and conducts
criminal investigations of IRS employees involved in these crimes.

       Tax preparers who improperly steal and disclose any taxpayer’s Federal tax
information as part of an identity theft scheme cause serious harm to taxpayers. The
following case highlights an instance when a tax preparer stole and improperly
disclosed the identity of her clients in order to commit identity theft.

Example 2: Kathleen Lance was a public accountant and president of her company. In
this capacity, Lance obtained and used the identification of six of her clients to change
the direct deposit account information on clients’ tax returns before she electronically
submitted their returns to the IRS. Lance thereby diverted funds from the clients’ banks
and redirected the deposits to her personal and business bank accounts. Lance also
                                            23
assumed and disclosed the identity of the six clients and fraudulently opened credit card
accounts in her name. On May 24, 2010, she was sentenced to serve 64-months
imprisonment and three years’ probation for wire fraud, theft of Government funds, use
of unauthorized access devices, and aggravated identity theft.

       Impersonation of the IRS as part of an identity theft scheme has many forms.
Often, the IRS is impersonated by individuals who seek to trick unsuspecting taxpayers
into revealing their personal information. The details of each scheme tend to vary, but
the common thread is the use of the IRS name to lure recipients into accessing links or
providing sensitive information.

          Victims are told that they are either due a refund or that a tax payment was
          rejected and the taxpayer needs to click on a link which either opens an
          attached form or takes them to a website where they enter their Personally
          Identifiable Information (PII), Federal tax information, and credit card
          information; or

          Victims are told that they are being investigated by the IRS and need to
          immediately respond by clicking on a link which opens an attached form or
          takes them to a website, where they are prompted to provide their PII to verify
          the status of their tax matter.

      In both of these situations, the victim is presented with a website which is
designed to replicate a legitimate IRS.gov website, often by utilizing authentic IRS
images and seals. The case below is an example wherein an individual impersonated
the IRS to commit identity theft.

Example 3: Godspower Egbufor, together with co-conspirators, operated a scheme
and stole the identities of numerous individuals and defrauded them out of more than $1
million through Internet solicitations. Egbufor obtained massive e-mail distribution lists
containing thousands of e-mail addresses and sent unsolicited e-mails falsely informing
targeted victims that they had won a lottery or had inherited money from a distant
relative. E-mails to victims falsely indicated that a Government or quasi-governmental
agency, such as the IRS or the United Nations, prevented the money due to them from
being awarded because advance payment of taxes and other fees were required.
Follow-up e-mails instructed the victims to provide their personal and bank account
information in order to receive their lottery winnings or inheritance. On December 19,
2011, Egbufor was sentenced to 108 months of imprisonment and five years of
supervised release for violations of Aggravated Identity Theft and Conspiracy to Commit
Wire Fraud.



                                           24
        In conclusion, the IRS’s current strategy for reducing the Tax Gap, which is
largely dependent on funding for additional compliance resources and legislative
changes, is not enough. The IRS recognizes that to make meaningful improvement in
voluntary compliance and to reduce the Tax Gap, it will require a long-term, focused
effort encompassing taxpayer service, modernization, and enforcement, accompanied
by broader simplification and reform of the tax code and significant advances in
compliance technology. One of the primary challenges facing the IRS is improving
research to better understand the current sources of noncompliance and to determine
what actions are most effective in addressing taxpayer noncompliance.

        We at TIGTA take our mandate to provide independent oversight of the IRS
seriously, and we continually strive to identify ways to improve the effectiveness and
efficiency of the Nation’s tax system and to prevent and detect fraud, waste, and abuse.
I hope my discussion of the IRS’s efforts to ensure taxpayers comply with their tax
obligations as well as what the IRS is doing to address the growing risk of refund-
related identity theft assists you with ensuring accountability over the IRS.

       Chairman Platts, Ranking Member Towns, and Members of the Subcommittee,
thank you for the opportunity to share my views.




                                           25
                         J. Russell George
                         Treasury Inspector General for Tax
                         Administration
                        Following his nomination by President George W. Bush, the
                        United States Senate confirmed J. Russell George in
                        November 2004, as the Treasury Inspector General for Tax
                        Administration. Prior to assuming this role, Mr. George served
                        as the Inspector General of the Corporation for National and
                        Community Service, having been nominated to that position by
President Bush and confirmed by the Senate in 2002.

A native of New York City, where he attended public schools, including Brooklyn
Technical High School, Mr. George received his Bachelor of Arts degree from Howard
University in Washington, DC, and his Doctorate of Jurisprudence from Harvard
University's School of Law in Cambridge, MA. After receiving his law degree, he
returned to New York and served as a prosecutor in the Queens County District
Attorney's Office.

Following his work as a prosecutor, Mr. George joined the Counsel's Office in the White
House Office of Management and Budget where he was Assistant General Counsel. In
that capacity, he provided legal guidance on issues concerning presidential and
executive branch authority. He was next invited to join the White House Staff as the
Associate Director for Policy in the Office of National Service. It was there that he
implemented the legislation establishing the Commission for National and Community
Service, the precursor to the Corporation for National and Community Service. He then
returned to New York and practiced law at Kramer, Levin, Naftalis, Nessen, Kamin &
Frankel.

In 1995, Mr. George returned to Washington and joined the staff of the Committee on
Government Reform and Oversight and served as the Staff Director and Chief Counsel
of the Government Management, Information and Technology subcommittee (later
renamed the Subcommittee on Government Efficiency, Financial Management and
Intergovernmental Relations), chaired by Representative Stephen Horn. There he
directed a staff that conducted over 200 hearings on legislative and oversight issues
pertaining to Federal Government management practices, including procurement
policies, the disposition of government-controlled information, the performance of chief
financial officers and inspectors general, and the Government's use of technology. He
continued in that position until his appointment by President Bush in 2002.



                                           26
